-c

-w«'

I

f \
v>
-

No.

Supreme Court. U.S.
FILED

V,./

JUL 1 4 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
Cathy Carr,

PETITIONER,
vs.

National Presto industries, Walmart
Corporation and Industries and Store and
unknown defendants ( And all.)
The RESPONDENT^)
*

PETITION FOR A WRIT OF CERTIORARI
From or to the Fifth Circuit Court of
Appeals, case number 20-50851 and the
USDC for the Western District of Austin
Texas, case number A-19-cv-0191-RP.
*

PETITION FOR WRIT OF CERTIORARI
*

Cathy Carr
7610 Cameron Road
apartment 2007
Austin, Texas 78752
512-783-2840
myartcathvcarr@yahnn rnm
Petitioner and pro se.

No.

IN THE
SUPREME COURT OF THE UNTIED STATES

Cathy Carr,

PETITIONER,
vs.

National Presto industries, Walmart
Corporation and Industries and Store and
unknown defendants ( And all.)
The RESPONDENT(S)
*

PETITION FOR A WRIT OF CERTIORARI
From or to the Fifth Circuit Court of
Appeals, case number 20-50851 and the
USDC for the Western District of Austin
Texas, case number A-19-cv-0191-RP.
*

PETITION FOR WRIT OF CERTIORARI
*

'<■

Cathy Carr
7610 Cameron Road
apartment 2007
Austin, Texas 78752
512-783-2840
mvartcathvcarr@yahoo.coiTi
Petitioner and pro se.

No.
IN THE
SUPREME COURT OF THE UNITED STATES
Cathy Carr,

PETITIONER,
vs.

National Presto industries, Walmart
Corporation and Industries and Store and
unknown defendants ( And all.)
The RESPONDENT(S)
*

PETITION FOR A WRIT OF CERTIORARI
From or to the Fifth Circuit Court of
Appeals, case number 20-50851 and the
USDC for the Western District of Austin
Texas, case number A-19-cv-0191-RP.
*

PETITION FOR WRIT OF CERTIORARI
*

Cathy Carr
7610 Cameron Road
apartment 2007
Austin, Texas 78752
512-783-2840
myartcathvcarr@vahoo.com
Petitioner and pro se.

Question presented.
QUESTION: WAS THE PETITIONER DENIED FAIR
DUE PROCESS AND EQUAL PROTECTION OR
OTHER RIGHTS, AND ARE THERE ANY REASONS
TO REOPEN OR REINSTATE HER APPEAL?

Parties to the proceedings
The petitioner Cathy Carr, was the plaintiff in
the District Court and the Appellate in the 5th
Circuit Court of appeals court.

The respondents are National Presto Industries
and Walmart Corporation and Industries and
Walmart store, and unknown defendants were
the defendants in the District Court and the
Appellees in the 5th Circuit Court of appeals but
they never reply to anything in that court.

Related Cases
United States District Court for the Western
District of Austin TX. Case no. A-19- CV-0191-RP

United States 5th Circuit Court of Appeals.
Case number 20-50851. Judgment entered on July
17th 2021.

u

Table of Content
Pages.
Questions presented

l

Parties to the proceeding.

n.

Related cases

n

Table of contents

iii.

Table of authorities

iv-v.

Sections in the writ.

vi

Jurisdiction

1.

Petition for Writ of Certiorari

1.

Introduction & statement of the
Case

1.

Writ should be heard because

25.

Concluding issues

25.

Reason for granting the petition

39.

Law and argument.........................

39.

Conclusions

39.

Certificate of compliance

40.

Proof of service

40.

Appendix

END

in

Table of authorities.
page
Lambert v. California. 355 U.S. 225 (1957)

6

Andrew vs Dial Com

10.

Andrew versus Dial Coro. 143 Federal Supplement
3rd edition 522 (WD Texas) 2015._______________

11.

Kaubish v. Weber. 408F3rd 540. 543 (8th Cir. 2005);

14.

United States v. Torres. 372F 3d 1139.
1163-64 (10th Cir. 2004).

14.

Andrew vs. Dial Corp.

15.

Andrew vs Dial Corp.

17.

United States vs Brown. 133 F 3d993. 996
(7* Cir. 1998).

18.

Judere Kleinfeld'a said in the
Pioneer 507 US. at 395. 26Id. at 388. 27Id. at 396

18.

Regarding Andrew versus Dial Com
Andrew versus Dial Corp

28

Kucana v. Older. 558 U.S. 233. 242 (2010)
(QuotingDada v. Mukasev. 554 U.S. 1. 182008)).

31-32

U.S.C. $ 1229 a (b) (5) (0.3 2

32.

Holland v. Florida. 560 U.S. 631 (2010)

32.

iv.

(*)Andrew versus Dial Corporation

32

Due process law

39-40

Appendix's. TABLE

5th Circuit Court ofAppeals

TABS

(l).5th Circuit Judges denial of reconsideration... (A).
(2).5th Circuit clerk’s denial to reopen,

.(B).

(3).5th Circuit dismissal OF APPEAT,.

(C).

(4). Petitioner request to reopen APPEAL............. (D)
(5). Petitioner request for reconsideration.

(E).

USDC for the Western District in Austin. Tpyab
UDSC answer to the petitioners* request for
(6). P transcripts and the complete record request (F).
(7). P Petitioner request for transnripts

(G).

(8). Petitioners motion for records.........

(H).

(9).Magistrates ruling for transcript USDC,

ID.

v.

i *

Sections in the Writ.
I
page 1.
II— -page 2.
III-page 3.
VI- -page 11.
V --page 14.
VI—page 19.
VII- -page 20.
VIH-page 24.

(A) --page 26.
(B)-page 30.
(C) --page 31.
(D) --page 31.
(E) --page 33.
(F) --page 34.

vi.

No.

muse
SUPREME COURT OF THE UNITED STATES
Cathy Carr,

PETITIONER,
vs.

National Presto industries, Walmart
Corporation and Industries and Store and
unknown defendants ( And all.)
The RESPONDENT(S)
*

PETITION FOR A WRIT OF CERTIORARI
From or to the Fifth Circuit Court of
Appeals, case number 20-50851 and the
USDC for the Western District of Austin
Texas, case number A-19-cv-0191-RP.
*

petition for Writ of certiorari
*

Cathy Carr
7610 Cameron Road
apartment 2007
Austin, Texas 78752
512-783-2840
myartcathvcarr@vflhnn com
Petitioner and pro se.

Opinions and documents of the opinions in appendix, attached at the end.
JURISDICTION
On 6/17/2021 the United States Court of Appeals denied the reconsideration done by
Judge James C Ho, and on 6/2/2021 the clerk denied the motion to reopen the case
when there was good cause and excusable neglect for disability or mistake, or for any
other reasons. USDC clerk should have executed the order & sent the transcript, to
the 5th Circuit Court of Appeals per as the petitioners request for this to be done. The
petitioner was entitled to have her appeal reopened because there was excusable
neglect and good cause for reopening her appeal and re considering it.
PETITION FOR WRIT OF CERTIORART
INTRODUCTION AND STATEMENT OF THE CASE
I.
On 12/23/2020 the plaintiff refiled her notice of appeal. On 10/21/2020.
she filed a notice for the transcripts for the anneal to he given and sent to the Fifth
Circuit Court of Appeals under IFP. Appendix F-G~H. The 1st notice of appeal was on
10/02/2020, and again she requested for the court to certify and transfer the complptp
record meaning transcripts and everything over to the Court nf Appeals, appendix
She filed ANOTHER motion to the court regarding the issues again and the
court said quote unquote on (vase-two ofoaee-17 document- 91.) “ifshe is somehow
seeking for the record to be sent to the Fifth Circuit Court ofAnneals for the purpose
ofher appeal, the clerk’s office is responsible for that”). Appendix T

1
petition for writ

This issue confused the petitioner, but she assumed that the clerk would
send these being requested, meaning everything. The court already knew that
petitioner was paupers and could not afford filing let along transcripts. One of the
critical issues in her case, involved with the transcripts issues, was that there was
one hearing in the district court , despite petitioner asking for nn evidence hearing
that she never got. It was a 2—5~minute hearing over pretrial, and nothing else except
for a deposition that had been taken by the defendants which the plaintiff needed, for
the 5th Circuit. Being sick, she made and sent a motion to reset this hearing
Apparently, the court had the hearing anvwav. She never knew about a hearing until
later. She suspects that it was 2~5 minutes in length from the court papers, hardly
enough of a transcript to establish ending an appeal over, and not related to the
appeal. She was not allowed at this time to come sick, due to the virus, or she would
of came. (*)She also did not know about the court reporter, and had no phone nnmhpr
address, or contact information given to her

about this unknown person. The

transcripts from this hearing were not related to her appeal. The petitioner had snid,
what she was appealing about, and it was not a pretrial issue. (*)Petitioner was
without funds or reliable information and proper notice to obtain records and was
also without funds to pav for these. She objects
II.
The motion she made for these papers, was not answered clearly, or understood. She
believes that based on the circumstances that she had no wav to obtain the transcripts.
because the only resolution offered bv the magistrate (who was not consented to), or to
2
petition for writ

even hear the matter, and was being pushed upon the petitioner when she did not want
him because he was not familiar with her case, and he was deciding issues that he did
not know about, regarding summary judgements and all, gave a very vague answer,
and the information wasn't on there to obtain anything. There was no court reporter
number, name, address etc. (The petitioner never received the benefit of a judge who
knew about her case and the petitioner had an interest in her caso and an interest in
having a judge that was familiar with the filings that she had done). (The petitioner
was denied fair due process and equal protections), from the court to first consent to
the magistrate or to refuse such, and more) and then to a nroper reviow nf summer
and of her evidence, and then her appeal. Evidence of the petitioners’ allegations are
that the magistrate did not know that she had done a deposition, or that she had done
several declarations, and more. Evidence that he misunderstood consumer reports of
others, who had been subjected to fires like the petitioner who had used the same unit ,
wherein he alleged that he did not know if it was the same unit, when this had been
said in other pleadings.
Evidence that the petitioner had said the m anual being used by the expert. was wrong.
having a new copyright date on it. and that it was different from the 2017 manual, that.
the petitioner had, but speculated by the expert. The magistrate and the defendant's
attorney, and expert never saw the manual in 2017. hut, it was accented desnite
objection. Wherein he and the expert and the defendants anted like they had owned
the same dehydrator in 2017 when they did not, and t.hev could testify to nothing
regarding that manual and had no testimony about the manual other than their
3
petition for writ

speculations. The magistrate apparently thought that the defendant’s attorney and
their expert knew, what was in the box in 2017. when the petitioner had her fire, but
they did not, and the magistrate believed thorn. Whv? When all never owned the same
dehydrator and they all did not know but speculated knowing . Because the magistrate
was push upon her without her consent, he also apparently knew what was in the
manual somehow, even though they were all wrong despite them testifying to this as
true, and the petitioner disputing this in declarations and all. Therefore he believed
speculation and wrong information and had nn knowledge nf the case, or what had
already been disputed and all. The magistrate acted like he owned the

dehydrator

and knew what was in the manual as instructions when none of them knew, other than
other, consumers who had disputed such in their reports and the petitioner who
actually owned a manual. Petitioner, testified to their manual as wrong in her
declarations. (So, the magistrate was problematic and unaware and was complacent in
the deceit of what the evidence was). All this was speculation based on no evidence hv
the magistrate and the expert and the defendant's attornpv an example of whv the
petitioner withheld her consent to the magistrate.
His answer on the requested transcripts seemed to be that the petitioner had to order
something without information regarding such or that the clerk would take care of it.
He knew the petitioner would not be able to pay for transcript because she had lost
everything in the fire and was now extremely poor. And had still not recovered from
the mold and destroyed work and all caused by the defendant’s defective product

4
petition for writ

By not fully answering the issue to the petitioner, the magistrate created confusion
regarding the transcripts or the record. And he also ignored provisions related to pro
se IFP litigants who have no wav of ordering transcrint or paving for these.
In Texas courts, when someone is indigent, the court reporter has to give the anneals
court, the transcripts. In fact, it would be good news if the deposition or transcripts
would be filed in the record, which would help the administration justice since the court
reporters have already received something for their work and the only issue is really
duplication of their work. Contacting an unknown reporter about paying for transcripts
after being given IFP statues and all seems moot when no funds are available to nav
these people. The party initiating the court reported or hiring them, should have to
pay for the transcripts, and they ought to be put in the file and placed in the file with
a docket number. Forcing the poor, who have been granted IFP. to contact an unknown
reporter and make arrangement for payment without funds is ridiculous. (*)[(Wherein
the petitioner was denied fair due process and equal protection, because she could not
pay for the transcripts wanted by the 5th Circuit Court of Appeals)!. When thp
petitioner did the deposition with the defendants, she was told bv the court reporter
that the cost for these was 500 dollars, which she could not afford. The clerk never took
care of it and never said who to contact or what phone number to call, or even the nanm
of the reporter and it was never listed in the court record either, nor was it listed in thp
5_th Circuit Court of Appeals record either, so unknown information never given to the
petitioners but required performance, was not doable and not fair due process.

5
petition for writ

[

■

III.
Confusion is always a good reason to grant excusable neglect., and nnlrnnwn
information is another reason to grant it. The Court has hpld that the Due Process
Clause protects against practices and policies that violate precepts of fiindan»>ntgl
fairness. The standard query in such cases is whether the challenged practice or policy
violates “a fundamental principle of liberty and justice which inheres in the very idea
of a fee government and is the inalienable right of a citizen of such government.
appeals are fundamental. A statute or rule may be so vague or so threatening to
constitutionally protected activities, that it can be pronounced unconstitutional on its
face, and here it should be, and technically the transcripts were requested by the
petitioner. Lambert v. California. 355 US. 225 (1957). Failure to act under
circumstances, should alert the doer to the consequences of a deed not done ” The
petitioner did not know her case would be dismissed, over tmrh and she had no wav of
paying the court reporter, or no way to act. Among other things the 5th Circuit Court
of Appeals never told her that her case was going to get dismissed over it and sent a
dismissal that she didn't get. She requested that the transcripts be sent over then she
made a motion for these in the USDC. She believes that she has been denied fair Hup
process and equal protection. Petitioner had an interest in her appeal because she had
been denied a fair hearing by the unconsented to magistrate. The plaintiff had the
defendants’ radiographic pictures because they were given to her by the man taking
pictures for the defendants, who saw defects like she did when the defendant's attorney
and the expert walked out of the room. This man said that there were defects in thp

6
petition for writ

unit and the plaintiff already knew there were because she looked at the pictures with
him and could see such. Petitioner has had experience in reading radiographic pictures
and had studied about herbs. She had done product analysis and was a product
developer and in fact had 15 different product lines that were destroyed by the
defendant's dehydrator fire which caused flooding and mold issues. Wherein,
petitioner lost her life’s work and other intellectual properties to include music and
formulas, that she had invented or developed, books and music, recipes, stories, and all
she had written. She had put some on metal tapes and other devices. These books were
excellent books, and her art was excellent and had sold in the past for $1500. for a
single print alone, and she had over 3000 high quality scanned items that she could
have sold or left to her grandchildren or etc. that went up in smoke and were destroyed
because of the water damaged and

mold issue, etc. Petitioner noticed on the

radiographic pictures that 2~wires were defective because she could see these as they
were light in color and would have been darker if not defective Among other thing*,
she could see that the fan blades were broken and that the nieces were close to the fan
motor and laying and scattered everywhere. The design was on the bottom of the unit
and if anything dripped on these open wires, it would instantly cause a fire!!! And the
petitioner would swear that this is what caused the fire, because the wires were open
and anything even water touching the wires would of caused a fire if it had been
dripped on., and if other items would have touched the wires even metal could have
caused a fire. This was an extreme fire h9

d over stuff cooking on top and Hrippinpr

towards the bottom, over a design defect of the bottom heating component placement
7
petition for writ

and the trays being too wide and placing these on the bottom of the unit rather than
the top. Petitioner did a Fishbone analysis and determined that the allegations that
the fireman made regarding the smoldering object as stated in the fire report was the
dehydrator or the onlv thing that had burnt even though smoke had exploded above
and everywhere over the fire stopper. She knew that a fan blade would not break
without having particles everywhere that could get into the heating elements and also
into the motor area that appeared blown out at the bottom nf the unit She also noted
that the fan blades were broken completely in the spot where the fire went

up

and

burnt upward melting the trays and the top of the unit downwards Among other things
the defendants said or Intertek said that the dehydrator fan blades were missing and
distorted, however this was fictitious and deceitful and a lie because the fan blades
were not missing, instead they were broken and laving all over the place and they were
close to the opening that went to the motor and a fan blade would not break iin a
straight line and there would be particles from the fan blades that had broken, all over
the place within the unit Under the orcumstaTip-eg this dehydrator was an extreme
fire starter, and this was not an analysis based on speculation. It was based on the
facts related to the case and evidence. Radiographic pictures do not lie, here the
pictures have 3-defects that can be seen bv simply looking at them, and the petitioner
could point these out for the jury who would believe that a fan connected with a heating
element, not working, was a fire hazard. They would believe that defective wires
dripped on would cause fires because everyone knows this. Among other things this
summary judgment was determined in conflict with Congressional reports, that also
8
petition for writ

concluded that fans that do not work in dehydrators are fire hazards. This was not
speculation, but the defendant’s expert claimed that the plaintiff used speculation
when he was speaking about himself. Defendants’ expert stated that the petitioner
used herbs, but herbs do not cause fires. And there are other problematic issues with
their expert because he came to Texas without a private-eve license, and Iip remnnt. Hn
this under the laws of Texas. Under Texas law, an expert mn«t have a private~eve
license in order to determine causation of someone else’s product, and it must be from
the State of Texas. He was fictitious about having an office in Arizona because the
plaintiff went with her friend to Arizona and saw that his office was nothing but a post
office box. And the pictures on his website were from the surrounding areas by the post
office. Petitioner also contacted Arizona and different authority agencies related to
Private-eyes and licensing and contacted Texas and he had no liransa. (*)(The
petitioner is entitled to protections of Texas law that deny neonls «mring here from
other places without proper conditions or credentials) and had an interest in this
protection, and ob]ects to the insurance related expert who decided his evaluation in 1 hour, on the day of inspection, when no other expert would or could do such. This is
absolutely impossible; it takes over a month or more to decide anything if a real expert
does the evaluation. Among other things, there is no degree called Forensic Fire Science
and this was fictitious as well. This expert was merely ex-police officer who had taken
arson classes and the classes that he fisted on his analysis are onlinp and the plaintiff
read them online. There were not any classes, that were anything sppcial. or that mu Id
determine anything about dehydrators or herbs or etc, and this expert was not qualifipd

9
petition for writ

to determine such or to allege anything about herbs or dehydrators and was merely a
fire arson inspector and nothing else. He mentioned candles in the wind and cell phone
chargers, but these items were not even in the apartment, nor could he prove these
allegations, and these were speculations. Real experts cannot speculate about
something, if they cannot find a cause, they must rule non-conclusive. hut he did not.
A one-hour inspection on the one day of his analysis would not be worth the paper it
was written on. Twenty other experts, called said the same. Wherein a one-hour
inspection is absolutely worthless, unless you have the magistrate that the Petitioner
had, then it counts, and the bad case law in Texas of Andrew vs Dial Corp. then it
counts wrongly. He did no experiments, and his analysis was not backed bv empirical
data or scientific or true, or based on experience, or the facts. Defendants
misrepresented that the fan blades were missing and distorted, because in the
radiographic pictures, the blades are there, they're just lying all over the place and
broken. This is a huge fire hazard, mixing plastic with fire and particles all over, so he
lied about the fen blades being distorted or missing because they are there, they were
just all over the place and can be seen on the radiographic pictures, and nf course.
particles would fall into the motor area and cause a blowout shown on the dehydrator.
Petitioner also did research on combustion and polyurethane trays and also on
smoldering objects. And found a NASA document about this, and the coloring was
exactly the same, showing that there was combustion inside the dehydrator unit,
connected with polyurethane trays. Proving overheating and fire, within the
dehydrator, rather than outside sources like the alleged candle in the wind and other
10
petition for writ

speculation from the defendant’s expert. He ignored the fire department that talked
about a smoldering object and searched for candles in the winds and alleged these could
have caused the fire. The fire department also determined that the dehydrator caused
the fire, but defendants expert alleged outside sources, without being able to backed
this up by any evidence, say what these other sources were, and without any witnesses
or any evidence to support this, and he was never at the scene, nor did he review the
scene and nor did he review appropriate pictures because everything had changed from
the night of the incident or the night of the fire and people had gone in there afterwards
and took pictures etc. Their expert also did not talk to witnesses and such, hut thp
magistrate granted them summary judgment, vs concrete evidence based on Tevas
case law which discriminates against poor litigants who are not able to afford
transcripts for one thing, and experts for another thing, see Andrew versus Dial Corp.
143 federal supplement 3rd edition 522 (WD Texas) 2015 Even if this expert was
fictitious, the one thing that the defendants had going for them, is that they could call
somebody an expert, wherein his analysis or expertise was in question.
IV.
Texas case law is suspected as being unconstitutional and in violation of the
Constitution. The petitioner deserved a chance at justice and to protect the issue and
was not given a fair chance over the transcripts, and this case law, and of course
because she did not receive notices from the 5th Circuit Court of Appeals that her case
was going to be dismissed over fading to provide transcripts, wherein, she had acted
and sought to provide these along time ago in the first place. The plaintiff did not
11
petition for writ

consent to the magistrate deciding her summary judgment and nor did she consent to
him deciding if she deserved to have the transcripts and who would pay for these and
how she would get these, etc. and she objects.
Either way his ruling was inconsistent and vague and did not give notice to the plaintiff
of the correct procedures and did not afford her awav to pav for the transr-riptn and did
not enforce her request to send the transcripts over to the Fifth Circuit Court nf
Appeals when she was entitled to a proper record on appeal and denied such in
violation of Fair Due Process and Equal Protection law which caused hpr case to he
dismissed wrongfully and denied reconsideration and all hv tha 5th Circuit Court of
Appeals. Petitioner's case was important to her because she had developed over 15
product lines, one was Flea Free Naturally for dogs and cats, a natural remedy that
keeps fleas off your animal almost indefinitely. Among other products in this fine was
a miss spray, a rug cleaner, a conditioner, a soap for cleaning your dog or cat, and a
shampoo. The plaintiff had spent countless years perfecting this and the ingredients in
this formula or these formulas and had tested these on people’s animals and etc. and
her products worked. She had first made all the products for herself. She invented a
suntan lotion that was made from pecan shells and that product line which lasted a
very long time and did not leave your skin orange. And a Roach formula that you spray
around your house,

which protected your house from bugs in general. Petitioner

invented the Reversal Theory Process in general and the elements of it and how it was
used, and all this theory was complex and used in her products. She had a car design
and a components kit. A tile kit that was not made from clay and was absolutely

12
petition for writ

beautiful. She had a product line called Water Dressing and that product line. She had
a product line called Soap to Go, which was a cream in a jar that you took with you
which conditioned your skin. She had a product that was called the Reversal Theory
Cream which made your skin look 20 years younger. And which made your skin feel
like a baby skin. She had another product that was a recyclable product that actually
was used for asphalt and filling holes in roads. She had a product line called Berry
Delicious., and other inventions and product lines. She also had books to include the
Joey Kangaroo and All the Right Stuff book series. Tapes that she had done in the
studio, a Statue of Liberty book and other books that she had written and music that
she had developed, created, and made, and other items that were important to her. The
magistrate treated her case as unimportant. If the Court of Anneals or this court does
not allow her to reopen her case, then she will be left with the loss of her life's wnrk
and a lot of intellectual property to include more because she wrote songs and music
compositions and books and other items. These were destroyed when everything pnt
wet and mold was everywhere and etc, and wherein stuff was thrown awav without.
the petitioners consent or knowledge and when she talked to an attorney about this
issues, he told her that anything that happened regarding the fire was because of tha
fire and that I needed to sue the people that had caused the fire rather than people
that had come in afterwards and try to throw awav things nr alWaHlv Haan nn things
when they did not know otherwise and should not have been there and this also injured
the plaintiff, because she lost items that were treasures to her and sentimental to her

13
petition for writ

and all pictures that were in the unit and birth certificates and everything else to
include degrees and photographs and baby stuff and more.
V.
The case was extremely important to the plaintiff and if she would have received the
notice in January, as alleged when she did not, she certainly would have made a
motion to reopen the case in 45 days and would have had her appeal on track in spite
of any of the issues, but she did not receive such. Some courts have reasoned that sood
muse applies only to request for extension of time made before the original filing «
notice has expired, but excusable neglect applies to request made afterwards see
Kaubish v. Weber. 408F3rd 540, 543 (8® Cir. 2005); United States v. Torres. 372 F 3H
.1159, 1163~64 (10th Cir. 2004)._Petitioner believes that anv instructions that she had
received were vague and did not seem doable, or possible or they were confusing.
Good cause also applies when there is confusion or when the post office fails tn

iver

a notice, because these are situations that are beyond the control of the petitioner.
During this time there were a lot of things regarding the mail

ATI

d the post office was

also handling mail from the election and there were issues in general with the mail. Tf
she would have received the documents in January, she would have acted promptly to
cure all the defects that were mentioned in anv letters that might have been sent, but.
she did not receive this from the 5th Circuit Court of Anneals. If sent the information
about what to do and how to resolve the issue, petitioners appeal would be nn tranV,
and she could strive to obtain some sort of justice under the circiiTrtstanrpa SVio in
entitled to the benefit of the doubt and the clerk has no proof that she received anythime
14
petition for writ

in January and her address had not changed and when she found out about the matter.
she acted to quickly preserve her claim bv making a motion to reopen the case, even
though it was past the 45 days and was denied her rights because she did not receive
such. Petitioner sought to preserve her claim and explained some of the circnTnstanppft
and made a declaration which was denied because it was past, thn 45 davs bv the 5th
Circuit Court of appeals wrongfully. Then for good cause or excusable neglect she made
a^motion for reconsideration which Judge Ho. from the 5th Circuit Court of Anneals
denied wrongly. Petitioner had already been denied justice from the District Court
because they refused to send the transcripts over after she requested th^se. and when
they left her with no ability tn pay for a court reporter’s renorts in the first plane and
when they gave her vague information and answers that she was supposed to order thg
transcripts which would have included her paving which could not be done. She did not.
want the magistrate on her case because he was confusing and not only that she had
not consented to him, deciding everything on her case. Among other things, ho was
vague, and it was hard for her to understand him or what he wanted from her and at.
best she could not make arrangements with a court reporter when she could not afford
to pay the court reporter in the first place. Regarding the defendants, court r^pm-tAr it>
Texas if somebody is indigent the appeals court makes the court reporter hand over the
documents for the appeals. Petitioner knows that Texas law is important to the
defendants because they paraded it ah over the place, with the case. Andrew vs. Dial
a case that discriminates on its face and grants litigants who are poor no justice versus
the ones who can afford justice or an expert. This case claims: that experts am almnat

15
petition for writ

always needed and that regarding design defects, that vou always have to have an
expert to explain the design defects when the design defects in the petitioner’s case
were simple. She stated a claim for a failure to warn on the box. The heated components
were on the bottom of the unit and not on top and could drip down and cause fires.
Among other things, defendants said in their own manual that if smoking occurred,
that a person should unplug the machine. In fact, the defendants knew this was a
defect, because the mesh was uncovered, and stuff was apparently drinping down into
the motor area that was on the bottom of the unit Thp temperature gauge was one
setting and according to empirical data, only meat can be cooked at this temperature
on a dehydrator and other items take a temperature of 65 to 95 degrees for vegetables
fruits and around 65 for herbal products. Therefore, everything was overcooking in the
unit and that was a design defect and having one temperature and 1 gauge despite the
fact that different temperatures were required and needed, was a design defect. The
trays were too wide, and anyone could see that food would fall or drip down or might
fall, down over the wide trays, another design defect. And there were other design
defects with this unit as well and they were easy and understandable for any mrv
member who would have been able to decide such. The petitioner believes that she
would have.been believed over the experts alleged candle in the wind and etc. Among
other things a broken fan in a product, is not only a fire hazard “but a manufactiirers
defect”. Among other things a broken fan, having moving pieces in a unit, wWh are
not supposed to be there is a defect, and damaged wires over fan pieces moving »mnnH i
with smaller particles moving around in heat related areas, is also a defect and a fire
16
petition for writ

hazard, and this can be seen on the radiographic pictures, and pointed out to the ilurv
who could have decided that the petitioner was absolutely correct. Because broken
sharp fan blades moving around would cause damage to the wires and open them

up.

a.fire was caused over the fan blades damaging the wires and damaged wires, dripped
upon are high fire risk, and dangerous! Instead, the magistrate voted for the
defendants because they had an expert and their expert mav have only done one hour
on the day of inspection, and nothing more than a visual inspection and no experiments
and speculated about everything hut they had somebody that they could ca 11 an expert.
Andrew vs Dial, Corp. is suspected as being unconstitutional and infrinpinfx upop the
rights of poor people to obtain justice, fair hearings and enual
denying concrete evidence and opting for experts who malro

to t.hp inrv and
statements

regarding such. There was nothing speculative at ah about petitioner’s analysis that
she had done in a 1~89 defense of the summary sent, which was signed with
declaration from the petitioner at the end that everything was related and true, in the
unit. The defendants did not have summary in favor of them but for Andrew vs Dial
Corp, and this magistrate and unconstitutional case law.
Petitioner had experience, Consumer Reports. NASA experimental documentation.
which showed combustion inside the dehydrator or that a fire started inside the
dehydrator, and her analysis that she used which was railed Fishbone Product
Analysis. Among other things she had been a member of the Inventors Society in San
Francisco and an officer, a member of the CJ Society and an officer, and a member of
hacker spaces, wherein they had components. 3D printing, laser printing. CNC

17
petition for writ

I *

machines and wiring and product making and woodworking and many other machines
and she was familiar with herbs as well because her mother was a reflexologist person
who did reflexology and petitioner had studied herbs when she was in her 20s.
Petitioner indeed had enough experience to be her own expert and requested such but
was ignored rather than an swered bv the magistrate. Regarding the Circuit Court.
when attorneys make mistakes they are given excusable neglect especially when they
are not familiar with federal cases and etc., because of their lack of understanding anA
the plaintiff or petitioner presented a case on this as well to include a declaration anH
aH, see United States vs Brown. 133 F 3d993. 996(7* Cir. 1998)
neglect in a case involving a lawyer who was handline only one federal case with the
rest ofhis practice beiner confined to ataje courts not only beim? allowedreconsideration
oyer not understanding the rules, but his appeal. Petitioner is entitled to the same and
did not failed to prosecute anything and was serious about her case. Also Judpe
Kleinfeld's said in the Pioneer 507 US. at 395. 26 Id. at 388. 27 Td at 395. that
mistakes made in good faith with no prejudice to the other party are excusable neelect
and that ignorance,ofthe law can indeed be classified as excusable neglect, therefore
if the petitioner was ignorant about anything, this could be classified as excusable
neglect wherein the case should have been reopened and reconsidered. The petitioner
has fought her case diligently with two cataracts in her eves and glaucoma pressure in
one eye and had done all of her pleadings and had fought, her case for over 2-vears.
( )(Petitioner believes that the issues herein have denied her fair due process and equal
protection and that the case was wrongly not reconsidered and wrongly not reopened),

18
petition for writ

and that there is excusable neglect or good cause to reopen her appeal and that shp
deserves justice and fair due process and protection and t.W W case mattered and
that her case should he prantpd

a reopening and that she should be granted W

appeal). Regarding Andrew versus Dial Coro., which alleges an

expert is almost always

needed, and that when it's a product design defect they're always npprfprf
this, case, this is obviously not the case. Therefore, the rioh are being given
gracious
understanding and kindness if they have an expert and can afford justice and
an
expert, versus the poor, without experts even when they have concrete evidence. Over
unconstitutional—case law that is not granting justice with an even hand over
demanding experts from people who c Annot afford them like the petitioner
VI.
If the magistrate meant that the clerk was going to take care of something then the
petitioner would have been entitled to that as well, although he was vamie nn wW ^
clerk would do Petitioner had requested the complete record to include thn
and all, wanting these because she had a disability and

tippHpH

the

m as a reasonable

accommodation over disability. She had filed many records and defendsd her casp !lnH
had done a JL89 answer to the defendant’s motion and backed it up with evidence and
a declaration stating that everything was related and true and correct, which
ksored by the magistrate, wherein the 5th Circuit Court of anneals could

spp

was

tw cl,.

had fought her case diligently and didn't consider that. A major theme with fair
process is that you provide notice, and you tell someone what, is going to happen if they
dp not comply with what you tell them to do. The plaintiff would never W

19
petition for writ

that her case would be dismissed and denied reopening and reconsideration over a two*
to-five-minute transcript hearing. This is excessive, and over baring anH unfair
considering her appeal was dismissed over it. The Appeals Court could have elected
and could have determined that anv documents not sent to the court would not he
reviewed or consider and then could have moved ahead and decided the brief without
them. No one ever told petitioner that her case would he dismissed over a two~to~five~
minute issue, and this is absolutely not in the interest of justice or fair justice at all
under the circumstances. (*)(Therefore, the petitioner did not received justice from the
District Court or from the Court of Appeals and has no other mpans tn protect her
claim, than to go to the Supreme Court of the United States and ask for justice, shp
believes that there are important issues over an
equal process and justice and believe that this writ involves fair due process and equal
protections for herself and others).
VII.
Petitioner was denied statutory rights when the clerk failed to reopen the case and
i

when the judge denied her reconsideration over the issues herein and all. At best.
(*)(The Court of Appeals should have given her the benefit of the doubt). Her cas^ was
important because she had lost her life's work, but not only that hecau«P
consumers had been injured by the defendant’s dehydrator. Defendants had another
product that they could sell that corrected the issues, and they muld have replaced the
defective one with the correct one, but Walmart was selling old outdated products
wherein in 2020 the plaintiff was made aware that full price was paid for a product
20
petition for writ

i

A

i-

•',1

•i ■

T

■j

?

i

'•W

.A

i

■I

i

*A

\

'?!

!.

V

i

,>

■:

/, sy

:

r;-

■t

>.

*• *

>

r

i.

•;

i;

v

o':

-V
i

p

.!

fM

••r

i-.''

\

V

1

tl'

*■

>

.'V

j

i

,-r

•!
:

•: ;'
-

■;

i

■:

1

5

v:’

{

i

i

r

(

i

*

i.

h

;
1,

fz

.*

f

l

l

i

:r-

I

-v.-

V

*• ".a

s

\

i

i

•V

i. • W .

»

I

.5

• i.rf

;

■

' r\

rV;

y

i
i

•Jr

J*

rv'

i

:.j-

».

V

- ' < i•

•*.

v-

'

•Vl « i.

J;

■P

:• .

V'

f:

- i

:\:u

■,

.-j

r*

£

.*>

f

*

* -’4. 1?'

,li . A'

.'I

;
«n

s

£: /

J*

»/•

■f, ,

it!'.

t

•r.

*

c

1

■r 'S’

t

" V*' :'

. 5

r

■i;

and when it was not working right, they try to call Tenhninsl Support to help them.
and Technical Support needed a serial number in order to give them support: and
Walmart had said it was a special buy, and once they were able to find the hidden serial
number, they found out that the product was 15 years old and that it had been
manufactured in 2005 and sold in 2020. and it was defective because t.hp unit, bad old
software in it. wherein Walmart, sells defective and old merchandise. And t.W are
obviously aware of this, and they do not care. The case was important, because other
conaumfira had fires also, and if the defendants keep getting away with causing fires
to people somebody, eventually they mav kill someone in the United States over mlling
defective products. Petitioner's suffering was enormous, because she bad 1 nat
Qy.srything, and now because of all here in she will be stuck with, and erroneous
judgment of summary granted to the defendants, case law that discrimin^tpa
her being used to determine such and a wrong judgment from the fith Circuit Court nf
Appeals who denied her appeal over all herein and left with concrete evident shnwinf
defects, and no way to remedy it. The interest of justice has not been served
If she would have got the papers in January, she would have acted to of cured the
defects, and would have done whatever the 5th Circuit Court of Appeals wanted tn ho
done under the circumstances whether that meant signing awav papers that shs
actually needed or not, if it meant closing her appeal. Wherein petitioner, called tho
court to find out what was going on and then she received the information that her nase
had been dismissed and asked them what to do and what should she file, and she did
everything that they requested but still her case was closed. Then she called and aslrpH

21
petition for writ

what she could do about them denying her motion to reopen, and they said that she
could make a motion for reconsideration with the judge, and she did that as well and
the blame i8 not truly upon her when she had asked several times for the transpriptn
to_be sent over. She believes that (*)(in the interest of justice, that her case should
have been reopened and reconsidered) rather than dismissed and she does not believe
that she failed to prosecute her case. If there were anv failures it was because she
couldn't afford to prosecute her case and the magistrate had not given her a clear
Avenue to do so, and the Fifth Circuit Court of Appeals in not opening her case, have
denied, her fair lustice and equal protection under the circum«tnnf*>g

Among other

things the district magistrate knew that she had been given IFP. Petitioner rh*Wanfr*
the vague rules that caused the dismissal of her appeal in violation of Fair due process
and equal protection after the status of IFP was granted.
The petitioner needs her case to be reopened and reinstated and for her anneal to be
heard. She needs her case reopened because a jury would have ruled for the nlaintifFa
evidence over the defendants in this situation. And because the defendants were not
entitled to summary judgment and because Andrew versus Dial Corporation
discriminates and is unconstitutional. Petitioner needs her case reopened because the
radio graphic pictures showed effects.
The radiographic picture showed that the fan blades are there but that they are broken
and that pieces are laying everywhere, and the boxes would have been being moved
and the particles and pieces could have fallen anywhere, and it is probable that
particles fell in the motor because the motor area had blowout on the bottom of the
22
petition for writ

unit. The petitioner did not really know what would be important to the Court of
Appeals pertaining to transcripts so she asked for them all, and Petitioner can prove
that she asked this several times. And she has been denied fair due process and equal
protection that others get.

She had previously been told by the defendant’s court

reporter, that she would need $500 for the private transcripts, which she could not
afford and did not even know who the court reporters would he with the USDC to make
any arrangements with them in the first place, nor could this cost he arranged for over
poverty. She had requested the documents ahead of time because she did not want
anything to go wrong. Later the plaintiff just simply decided to fill out the form and
claimed that she didn't need any transcripts when she in fact did need the private
transcripts because they showed proof that the defendant's picture taker had said there
was something wrong with the dehydrator and had given her nine of the pictures even
though there were more pictures than the 9, she received. She reviewed 9 pictures,
over and over and over for about a month and saw something wrong with the
dehydrator. The plaintiff is aware of fuses and such and knows how to change fuses
and ah of this and learned this after she had the fire and has worked with components
to include other devices. Excusable neglect is covered when there is confusion and when
there are issues herein like in the petitioner's case, and because a case can be opened
for any reason to include good cause. The Court of Appeals could have elected to hear
the appeal without the two-to-five-minute transcript and the plaintiff was under the
impression that the clerk s office was responsible for the complete record which would
have included the transcripts. *[The plaintiff should not be forced havA a mflpnatrgf-o
23
petition for writ

forced upon her and this was done over and over and over and over and as evidence
when you look at the mobile app concerning all the referrals, it. was almost, lilrp tha
original judge was referring everything to the magistrate and well tbp plaintiff^ nnt
consent to this full force of his insertion into her case and is entitled to relief!. .
VIIL
The opinion of the USC of Appeals for the 5th Circuit appears is in appendix ^Pdorm
Wlth JMge Janies C Ho, and Appendix (F-G~H) is from THE USDC for the Western
District of Austin, Texas SHOWING that transcripts were REQUESTED bv the
PETITIONER and a request for the complete record was done as well. As far as the
plaintiff knows the records contained the transcripts. Petitioners asked for these
documentations and made a motion for these, and the magistrate said the district clerk
was in charge of this. Apparently, they wanted the petitioner to fill out a form that she
could not see, and wherein she did not know who the court reporters would be and was
never told their names and so the form was very problematic because nothing
was
known and there was no way to figure out who the court reporter was, to order anything
from them and no way to pay her or him in the first place. Defendante could have
provided the private ones to the Court of Appeals, but no order was m»dp
such. In Texas, when IFP is granted, the courts require a record from the court reporter
for free to be sent to the Texas Courts of Appeals. Petitioner did not have $500 like
others have to buy transcripts and asked for the transcripts under government cost or
fora copy to merely be sent to the Court of Appeals SINCE the court reporter hnd
her A correction that had COPY on it to correct her deposition with WHICH HAD A
24
petition for writ

BIG COPY notice ON IT, and she could have used those documents to refer to but the
court needed something that they could actually see better than that. AND THE
PETITIONER WANTED TO REFER TO THESE BECAUSE they showed evidence of
a defect in the deposition and that she had testified to such.
The Writ Should Be Heard BecauseIf the case is not given a chance, the evidence will be on the record with defects and
never taken care of and mstice will not have been fairly served or done.
( )[The Court of Appeals should have granted reconsideration

of her case for good

cause or for excusable neglect or for any other reasons, to include a USDC nlerlr
mistake]. *[Plaintiff is entitled to notice that she can perfect and understand and that
she can comply with rather than a notice that is meaningless and which she c:innni in
fact do in the first place, based on circumstances or otherwise! .
Concluding isflnpg
A motion to reopen is an important statutory mechanism It allows
existing orders to be vacated. Supposedly in January, according to the clerk on the
telephone, the petitioner’s case was dismissed because the plaintiff did not fill out
form DKT-FORM 13 related to the transcripts. However, petitioner never got ANY
DISMISSAL OR,ANYTHING SENT OUT to her in January. She had no idea that
anything was wrong with her case. If the petitioner would have rereived the alWH,
sent-out dismissal over this issue, she would have acted IN ORDER TO preserve her
claim, like she did when she found out such later on when she made a motion with
the court to reopen it when she found out about it and would have done so within dK

25
petition for writ

days if she would have known about the issue and has not

knowingly ftnWl tn

prosecute her case. The plaintiff also requested reconsideration and believes that
had valid reasons for reconsideration to reopen the case The Court of Appeals clerk
also does not have proof that this was sent and or that the petitioner

ever received

such or that it was even mailed. The plaintiff has diligently fought her paao
several years. It is unfair, because the plaintiff was IFP AND HAD asked for the
transcripts after she made her motion for an appeal. The plaintiff not only asked f™.
these to be sent and given to her, but that these be sent tn the 5th Circuit nn„-+ nf
Appeals, see (APPENDIX-F-G-H) TO INCLUDE MORE REQUEST THAT WERE MADR
(A).
The 5th Circuit Court of Appeals wrongfully dismissed her case, alleging
that she failed to prosecute her case when this is absolutely not true. The petitioner
did not receive meaningful access to the courts and to her appeals because of cost and
the Texas case law issues. The petitioner also states that confusion is also a reason
to grant excusable neglect and reopen a case. For good cause or for ^xcusahlo

tipgWt

or for any reason under the sun the petitioner was/is entitled to have her

case

reopened, because the USDC clerk failed to execute the request, needed, for the Court
of Appeals. Then the petitioner motioned for reconsideration, which was denied from
the 5th Circuit Court of Appeals wrongfully. Good cause has been given to attorneys
when they have been not familiar with appellate procedures and made mistakes and
the plaintiff is a pro se IFP litigant who doesn’t have full understanding of the
but has done her best to prosecute her case because she could not afford

26
petition for writ

court

an attorney

T

to do it for her and it has been a lot of work to end up being dismissed over a two
minute transcript that the Court of Appeals could have deemed not related to the
matter which was up on appeal and they could have proceeded with a lesser remedy
for the petitioner. The plaintiff had requested the transcripts to be sent over to the
Fifth Circuit Court of Appeals.*[The petitioner and all was entitled to rely upon the
judge’s statements that the district clerk takes care of that. If the District, Court was
going to take care of that, then they should have given her the namps of the people
associate with the transcripts or the court reporter's name in the 1 st place but
instructed her clearly on the issue and she was not given correct information or
informed of such. It is impossible to believe that she could have ordered transcripts
from an unknown person. And it's impossible to believe that she could take earn nf.n
exorbitant cost after she had lost everything in the fire due to mold or etc, and did
not even have socks to wear or under garments over it all. She was entitled to cure
her defects timely and to get the notice from the Court of Appeals and should be giv^n
the benefit of the doubt. Her case was extremely important to her because thpro is
l[Case law in Texas alleging that [experts are almost always needed for nrodnnt
defects and also for design defects when this is simply not the case and it is causing
the rich to be served iusticp white denying an even Hand to the poor, over the poor
not being able to buy somebody and alleged that they aro an expert. As far.as the
plaintiff is concerned, she could have been her own expert and requested such.
Because Texas case law needs to be reviewed wherein poor people cannot afford
experts and are being denied fair due process and equal protection, because in fact
27
petition for writ

design defects can be determined without an expert based on circumstantial other
evidence the case law in Andrew versus Disl Coip is incorrect and wrong. So.
petitioner has a lot of evidence and has a great chance or at least a good chance at
reversal if the appeal is heard the writ should be granted. And because there is
evidence and other issues here in this case the rich should be granted. And the rich
should also be granted to ensure justice for all. The writ should he granted because
Texas case law is denying poor people trials and access to justice and a denial of a
hearing and a fair determination in the courts of Texas and this is uniust and unfair
and not m line with science or the evidence in these cases and is suspected as being
unconstitutional and it is an important matter to hear, over treating the poor less
favorable than others, to include granting or denying summary motions to a party
because they're rich when they don’t even have evidence goes against equal justice
for all. And the plaintiff believes that the iurv would have decided otherwise and
actually decided in her favor. Without her appeal or her case being ripened thiis case
Law will be on the books for other poor people to be injured hy when it is incorrect law
and was not an element put on the list of elements for defective products in the first
Place-—Here the case is protecting the rich over the poor and denying the poor
meaningful mstice who are getting no justice at all. The defendant said that the
plaintiff had no expert. And that under Texas law expert testimony ia generally
encouraged if not required to establish a product liability rlaim, when this is not the
case. Among other things, the iurv could see the defective wires because they are a
lighter and less prominent or dark then the non-defective wires. The petitioner used

28
petition for writ

NASA documents to show smoldering combustion in the unit, because the fire was
internally inside the dehydrator and all of the witnesses backed

up

the plaintiffs

analogy as well. It was the defendant’s expert that alleged stuff that could not cause
a fires, like he claimed the plaintiff had used herbs, but herbs do not cause fires, and
his analysis was not based on empirical data and it was because the magistrate was
not familiar with the case and had been thrust upon the petitioner without hpr
consent m deciding her summary judgment and other orders as well and had not
given the petitioner a full hearing on the evidence and she objects. The plaintiff had
common knowledge about herbs because she used herbs all of her life and her mother
studied herbology and she had studied herbology and had read several books on t.hf>
subject.

She was a member of the hackerspaces for a time and had also studied and

had done components, and 3D printing and laser printing and plastic mold imWHnn
and other design techniques and wiring and etc, classes and all. She had experien
with radio graphic pictures, and these were used in art and in shipping and etc, and
they were sometimes portable and showed cracks in different things to include wiring
issues sometimes. In fact, she could change a fuse in that dehydrator if she had tn
and the defendants own picture taker said that there was something wrong with the
fuse and other defects and she put this in her deposition and also in her declarations.
The causation was not speculated from the petitioner, but it was from the defendants,
and there were defects. The plaintiff was qualified as an offirar of the Inventor Society
elected by her peers and as an officer of the Criminal Justice Society and had h^n
elected by her peers and the expert, he read some classes onlim? and nut these in his

29
petition for writ

list of credentials for determining the causation because the plaintiff found his list of
classes online and read them too. He could not come to Texas and determine causation
or anything else because he lacked a Private Eve license, from Texas to determine
causation if he’s from a different state or not connected to the product. *lThe plaintiff
is entitled to Texas law that protects her from unscrupulous people coming without
credentials and trying to determine causation when they donft have the qualifications
or license for doing so, and this one, he didn't even have an office in Arizona because
the plaintiff went with her friend, and she saw that his alleged business was nothing,
but the post office and the surrounding areas, were the pictures were related to such.
She called over 20 different experts and they said there is no degree called Fire
Forensic Science, and while there may have been a degree called fire science, it did
not cover herbs or dehydrators or herbs that would cause fires and his allegations
were not based on empirical data. This expert was connected with iinsurance
companies and was not even paid the amount of money that normal experts would he
paid because most of them charge $20.00Q-$30.000 and the evaluation takes over a
month when it is done correctly and this one, he did it in one hour on the dav of
inspection.
(B).
The dismissal is extremely unjust, and the Fifth Circuit Court of Appeals should have
taken clear methods to make sure that the plaintiff got the dismissal, so that she
would have been provided with the opportunity that others get to cure the defects in
45 days and to have her case reopened. Because no measures were taken to ensure

30
petition for writ

such due process was going to properly notify the petitioner, the plaintiffs case was
dismissed and refused a route of opening it by the 5th Circuit Court of Appeals and
has been denied a fair hearing over a case wherein.

The petitioner had asked for early transerjpts and all of this as a reasonable
accommodation because of her disability and these should have been sent and taken
care of. This case was extremely important the petitioner and was also extremely
important to other consumers all over America and in Texas. Justice is to he serveH
with an even hand rather than granted to the rich one and denied to the poor.
Apparently, the transcripts were so important that the petitioner could rm.vp no
meaningful justice without them therein she had an interest in receiving these and
in receiving meaningful fair due process and equal protection and in notices regarding
her case before it was dismissed, so that she could act to take care of any issues that
were involved or that needed to be corrected involving the 5th Circuit Court of
Appeals. She believes that she has been denied fair due process and equal protection
and court notices that she could do and correct, that others get.
(D).
Supreme Court recognizes that a “motion to reoven is an ‘impnrtant
safeguard’ intended ‘to ensure a proper and lawful disposition’ of nroneodintra ”
Kucana v. Older, 558 U.S. 233, 242 (2010) (quoting Dada v- ATukasev. 554 U.S. 1. 18
2008))^ See U.S.C. f 1229a (b) (5) (0.3 2. A motion to reopen is a statutory motion
even ifit is Sled more than 90 days after an order upon a showing that the

31
petition for writ

merits equitable tolling. Equitable tolling is a principle that entitles litigants to

an

extension ofnon jurisdictional filing deadlines ifthey act diligently in pursuing thenrights but are nonetheless prevented Grom timely Gling by
circumstance. See, e.g., Holland v. Florida. 560 US. 631

some extraordinary
Petitioner had

requested that the transcripts be sent to the Fifth Circuit Court.
^[Therefore, for good cause or any other reason, the 5th Circuit Court nf
Appeals should have reopened the case and reconsidered the issues. The Court of
Appeals documents were important to the plaintiffs appeal and the District Court
knew that she was in
HLpaupers and had suffered great losses over the fire and nil nr
herhfe's work and she had a right to be able to perfect her anneal whether nnnr „
not. (*)Andrew versus Dial Corporation is wrong. A product design defect i„ al„n a
failure to warn,. dripping being caused because the elements

were on the bottom

rather than the top and one being the temperature gauge which was one setting and
herbs are not cooked at 165 degrees unless these are meat, this is based on empirical
data. The plaintiff did NASA studies based on polyurethane combustion and
smoldering. The plaintiff had done a product analysis and had done an analysis called
Fishbone which proved that the dehydrator broken fan blade pieces would have been
moving around, when the box was moved or shipped, having sharp broken blades in
the area, the blades damaged the wire that would have open wires, and anything
dripping on them would cause a fire. Even if these wires, would have touched other
medal, it would cause a spark or more, leading tp a fire. These are all defects that a

32
petition for writ

jury could see or be explained to about, that supported a

inHppTnn.it

the plaintiff

(EL
Sue process requires that the procedures by which laws are aonlind mn*t h»
evenhanded. The issues herein are offensive to the

concept of fundamental

fairness. Procedural due process rules are meant to protect persons not from the
deprivation, but from the mistaken or unjustified deprivation nf life, liberty nr
property, and courtprocess probably applies as well." Thus, the required elements of
due process are those that “minimize substantively unfair or mistaken deprivations"
by enabling persons to contest the basis upon which they have been deprived of a
protectedinterest, (l) Notice, andindeed proper notice, like a nertifog letter and etr
wouldhave changed everything, and wouldhave allowed the petitioner
issues fora dismissal. Is an elementary andfundamentalrequirement ofdueprocess
in any proceeding which is to be accorded Gnality, under all the circumstances, to
apprise mterested parties of the pendency of the action and afford them an
opportunity to present their objections."This may include an nhlifraH™
learning that an attempt at notice has failed, to take “resennahl* Mi„„,

upon

up measures”

that may be available. In addition, notice must be sufficient to enable the recipient.
to determine what is beine proposed and what they must dn to prevent the*.
deprivation of their interest. Ordinarily service of the notice must he reasonably
structured to assure that the person to whom it is directedreceives it Here the notim
of the dismissal was never received but would not have Wn

33
petition for writ

an issue if the orders

from the ludge to the district clerk in the first place would have been executed.
Among other things the case is important because a gross wrong determination was
made on the summary and if left in place, the petitioner will be denied protections
from Texas law that she has an interest in and denied fair due process over all herein
but also because of Texas case law rules, which is kicking out poor litigants’ cases, if
they do not have an expert even though there is clear and concrete evidence of a defect
with this dangerous defective products, the petitioner will never receive any justice..
The public and consumers and the petitioner deserve more. All are entitled to relief
and meaningful lustice and processes and protections of their property interests. The
issue of the, “unconstitutional conditions” doctrine, held that, “even though a person
has no ‘right’ to a valuable government benefit and even though the governmpnt mav
deny him the benefit for any number of reasons, it may not do so on a basis that
infringes his constitutionally protected interests. The exclusiveness of the record is
fundamental in administrative law. Plaintiff-petitioner has been denied her appeal
and trial and all. If the petitioner would have received the documents in January, the
petitioner would have cured the defects in 45 davs and her appeal would have been
reinstated, for the Court of Appeals, but she never got it. she objects.
(F).
[ * ]Therefore, a timely petition for reconsideration was denied by the United States
Court of Appeals and it was timely because the plaintiff anted as soon as she found
out about what had occurred. The date that the petitioner requests the transcript was
appendix 6- 7~8 she made a motion to the court for these tranunrints on (docket USDC
34
petition for writ

87 0/2/2020 and docket 90, 10/27/2020 and docket 91 10/30/2-2- and docket 92.
11/5/2020 and more),

and she obiects. In the record it savs what petitioner is

supposed to do but this was never told to her. Petitioner’s case is important because
it has to do with denied fair due process and denied equal protection, and access to
the courts, and justice. It also relates to unconstitutional laws and case law in Texas
ending and depriving the poor of their cases over not being able to afford experts, and
Texas favoring experts who do evaluations in one hour, based on speculations and no
proof vs the poor with proof but without an alleged expert, wherein the petitioner had
proof that there was a defect in the dehydrator related to a heating element when the
fan blades were discovered broken on the radiographic pictures and the pieces were
all over the place in heating element areas, with particles everywhere. The motor and
the pieces would not have broken without distributing particles into the motor and
^OQ^reS3 even says that when a fan is defective or broken it ran cause a fire and
is considered a high potential fire hazard, per as Congressional reports from expert
testimony in Congress related to deh vdrators supplied to the judge who never seemed
to read these. Other important issues are that the petitioner and all, was entitled to
the protections of Texas law, and obiects rftgarHinp an^ over h arm done. Therefore,
defendants did not have a proper expert themselves. Because he could not m«lm
determination of causation because he did not have Teyaa rrprigntials. Or a private
detective license from Texas harking him up. He also did not have an nffir-A in Ariy-ntm
and fictitiously demonstrated that he did, on his website alleging Forensic Fire
Science when there is no degree for this, nor did he have anv degree associated with

35
petition for writ

Forensic anything. He was merely working for insuranop anH haH studied pnlir>P
dasses reviewed by the petitioner, regarding arson. His causation about the plaintiff
misusing herbs was fictitious and herbs were on the box and herbs do not cause fires.
Him going to different seminars did not matter because the petitioner had done the
same as a member of the Criminal Justice Community hoing elected at. I.Vip tima hy
her peers as the vice president of such, and in fact she was the one who put some of
the seminars together for the association. And she could read the radiographic
pictures and stated this in a declaration. Texas has been making reporters provide
transcripts to their Court of Appeals Courts in Texas courts when a party is indicant i
and the magistrate could have ordered the defendants in tho district case to provide
these to the COURT OF APPEALS. Petitioner also wanted Texas case law to be
reviewed, over its effect upon poor people and defective product claims. Among other
things the fire department determined that the dehydrator had caused the fire The
defendants paraded all over that the plaintiff had no expert, but the fact of the matter
is, defendants didn’t have an expert either because their expert could not come to
Texas without a Private-Eye license and the plaintiff is entitled to Texas law that
protects her against people coming here without proper credentials and she ohifietod
to this expert and requested that he be removed from the case. In this case above the
defendants alleged that an expert is almost always needed according to this case that
actually discriminates against people who cannot afford an expert. Andrew versus
Dial and the case ruling, which discriminates against poor people and demands
experts for the poor who cannot afford them and favors the rich with an uneven hand
36
petition for writ

given to the rich and denied to the poor granting no meaningful justice and unfair
due process and equal protection for poor litigants in Texas to include everywhere.
The issue should be corrected so that other consumers can be protected from
dangerous products, wherein the defendants had a product that replaced the
dangerous product but refused to sell it at Walmart because Walmart sells old
defective items and claims that they are special buys especially when they are old
and defective. The plaintiff included several Consumer Reports where consumers had
had fires and who had the same issues and who had had fires within nne hour after
their machines, in or on, lust, like the plaintiff did. Among other things the
plaintiff was a witness to a product that was bought in 2020, wherein a computer was
bought in 2020 and it had a manufacturing date of 2005 on it and had been bought at
full price from Walmart who said it was a special deal. When tech support, asked for
the codes on the back of it, because it did not work, these codes were not seeable, so
the computer had to be taken to a place so that they could see the serial number of
the product sold by Walmart, and it was found to have been manufactured in 2005
and the updating of the software because it was old was causing glitches in the
system, making the unit, old and defective wherein the computer was to old to work
being 15 years old, but sold as a brand new product. So. Walmart sells old products.
and they also sell damaged products and the plaintiff had evidence. The plaintiff has
been denied, all of her rights regarding Court administration and processes of records
and transcripts in violation of the Constitution . the petitioner should not have to
suffer this erroneous loss after losing her life’s work over the defective dehydrator,
37
petition for writ

and Texas case law that needs to be corrected. Petitioner’s case should have been
reopened and reconsidered for good cause or for excusable neglect or for any other
reason under the sun because she did no wrong and did not fail to prosecute her. If
she would have received the documents in January of a dismissal, she would have
cured the defects in 45 days and there would be no problem. *[Therefore. there is
excusable neglect or good cause FOR REOPENING THE CASE!. The plaintiff was
denied statutory rights to administrative Justice. She is entitled to relief and to have
her, case reopened and reconsidered and put back on the docket sheet for the 5th
Circuit Court of Appeals. And the Court of Appeals Judge Ho should have granted
her reconsideration of the clerk's dismissal as a matter of justice, she is entitled to
the benefit of the doubt and relief. The 5th Circuit Court of Anneals could have used
a lesser remedy than what was used against the plaintiff ..The petitioner had a
statutory right to have the records and transcript because they were connoted tn hor
appeal and without them, she could not appeal at all, she had a right tn know who
the District Court reporters would have been so that she could malm a request from
them. A petitioner is entitled to information that preforms, rather than vagueness
of someone telling her to do something that she cannot, dn nVer cost. The confusion or
otherwise is enough reason to determine excusable neglect or good cause. Plaintiff
was denied fair due process and equal protection because she wasn't even told whn
she was supposed to get the transcripts from or what their phone nmnW waB nr
to_reach them or where they lived or where they were holding an office at and etc.
She was totally in the dark regarding this information and the clerk never did send

38
petition for writ

. *

this information or this contact information to her and she objects Amnnff
things she should not have to beg for transcripts when the court already knows that
she is IFP.
jThe petitioner and appellant has been denied fair access to justice and fair Him
process and equal protection] and believes that her civil rights and constitutional
rights have been violated in regard to access to the courts and equal protection
fair due process, petitioner had a statutory right to have the documents transferred
and she had a statutory right to documents that she needed fn? her anneal if this
was going to dismiss her appeal and the judge or the magistrate should have nnimH
these sent.

If the Supreme Court denies such then the plaintiff will be left

discriminated against without a remedy to justice or a wav to correct the issue and
she has suffered enough. The Supreme Court Writ of Certiorari is timely and within
the time limits because it was decided on June 17th. 2021. The jurisdiction of the tt s
Supreme Court is invoked herein
REASONS FOR GRANTING THE PETTTTONT
If this case is not granted, justice will never be corrected or served. This leaves the
petitioner with unconstitutional laws denying her summary judgments and a trial
because of Texas case law, and an unfair dismissal of her appeal to correct these
issues, in the interest of justice, and effects other consumers who poor as well.
Law and argument.
No State shall make or enforce any law which shall abridge the nrivileaea
immunities ofcitizens ofthe United States; nor shall any State denrive any person nf

39
petition for writ

'

S

life, liberty, or property,; without due process oflaWi nor deny to any person within
its jurisdiction the equal protection of the laws .In Texas, cpsr law is denying hhp.Ii i
and all herein has contributed to denied rights, the petitioner is entitled to relief..
CONCLUSION.
Petitioner has been denied her appeal and trial and all herein, she is entitled to relief,
and request that her writ be heard and granted, and all.
Respectfully submitted,

L,
Cathy Carr y
7610 Cameron Road
apartment 2007
Austin, Texas 78752
512-783-2840
mvartcathvcarr@yabon nnm
Petitioner and pro se.

Certificate of Compliance
Petitioner has less than 40 pages, she used Word, 365 old version. The type of
lettering is Century 12 points. Sides are one inch and she believes everything is in
her writ that needs to be there. It is double spaced, and the clerk said to send 1 cope
rather than 11 copies over covid. The writ is believed to in compliance with the rules.
S/CATHY CARR.
The proof of service sheet is attached:
(*)Defendants were served by email, or mail, certification next page, attached.

40
petition for writ

r

L
No.
IN THE
SUPREME COURT OF THE UNITED STATES
Cathy Carr—PETITIONER
vs.

National Presto industries, and Waimart Corporation and
Industries and store and other unknown defendants.
RESPONDENT(S)
PROOF OF SERVICE
I, Cathy Carr, do swear or declare that on this date, today is7 ~

j 2021, as required

by U.S. Supreme Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by either depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days, or by
email to their attorney
The names and addresses of those served are as follows: defendant's attorney Timothy Schupp,
tschunn@meagher.com or by mailing it to his address at: 33 S 6 St Ste 4400 Minneapolis MN
55402 phone number 612-338-0661 and fax number 612-877-3107.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on^M^T 2021

(Signature)S/Cathy Carr

